Audit of the Commission's Employee Appraisal Process:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of the Commission's Employee Appraisal Process:  Executive Summary
January 20, 1998
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report presents the results of the Federal Election Commission (FEC), Office of Inspector General (OIG) audit of the Commission's Performance Appraisal Process.  The primary objectives of our audit were to:  (1)  determine whether the Commission's employee appraisal process is in compliance with applicable Federal regulations and Commission Personnel Instructions; and (2) determine whether the Commission's monetary incentive process is in compliance with applicable Federal regulations and Commission Personnel Instructions.
The FEC has an established Performance Appraisal Process which covers all staff, except for the fourteen executive staff positions of the Commission.  The FEC's appraisal process has been approved by the Office of Personnel Management (OPM).  In addition, OPM approved the Commission's request to exclude the fourteen executive staff positions of the Commission from the requirements to have written performance standards and annual performance appraisals.  Commission policies on the appraisal process are contained in internal Commission Personnel Instructions.  In addition, Title 5 of the Code of Federal Regulations contains requirements related to the appraisal process.  The Commission also has an established monetary incentive process which covers the executive staff positions of the Commission, senior level staff, bargaining and non-bargaining staff.
Our audit scope covered fiscal years 1994, 1995, and 1996 (October 1, 1993 through September 30, 1996). However, due to the Commission's policy on special achievement awards to the Commission's executive staff, our review of achievement awards to executive staff covered calendar years 1993 through 1996.  The audit field work was conducted between July and December of 1997.  Our audit was conducted in accordance with the General Accounting Office's Government Auditing Standards, and included such auditing procedures as was considered necessary.
The Commission's Performance Appraisal Process was evaluated for compliance against Commission Personnel Instructions and the Code of Federal Regulations (CFR).
Our audit examined the contents of the Employee Performance Folders to ensure the Personnel Office is complying with the CFR by purging performance related documents.  We also reviewed the performance plans to ensure the standards are written in compliance with the CFR.  We reviewed the appraisal ratings to ensure the ratings are submitted to the Personnel Office timely and to verify whether the reviewing official is approving the appraisal prior to the appraisal being shown to the employee.  We examined the performance and incentive awards to verify that the awards are granted in accordance with Commission policy and Federal regulations and also to ensure that awards are processed in a timely manner.
We found the FEC's Performance Appraisal Process substantially in compliance with applicable Federal regulations and Commission Personnel Instructions.  However, our audit revealed several weaknesses in the Commission's Performance Appraisal Process which are detailed in the Audit Findings and Recommendations section of this report.  We hope that the recommendations contained in our report will be acted upon in a prompt manner to correct the deficiencies found.  We would like to note here that several of the problems found during our audit were also issues which were reported on in a similar OIG audit in 1992 of the Performance Management and Recognition System (PMRS).  See the Audit Testing and Results section of the report for a description and results of our 1992 audit and also the results of our follow-up to that audit.